No. 20-1095

IN THE

Supreme Court of the United
States
DARIUS WAYNE HAWS,
Petitioner,
v.
STATE OF IDAHO,
Respondent.
Certificate of Service
I served the Brief for Idaho Association of Criminal Defense Lawyers and
National Association of Criminal Defense Lawyers as Amici Curiae on all
parties required to be served. After obtaining consent to do so, I served
the Brief on counsel listed below with electronic copies via email.
Jeremy C. Marwell
2200 Pennsylvania Ave., NW, Ste. 500 W.
Washington, DC 20037
(202) 639-6507
jmarwell@velaw.com
Counsel for Petitioner
Kenneth K. Jorgensen
P.O. Box 83720
Boise, ID 83720
(208) 332-3541
ken.jorgensen@ag.idaho.gov
Counsel for Respondent

/s/ Jonah J. Horwitz
Jonah J. Horwitz
Date: 3/30/2021

